No. ____________
IN THE SUPREME COURT OF THE UNITED STATES
Charles Dennis Friedman,
Petitioner,
v.
United States of America,
Respondent
CERTIFICATE OF SERVICE
I, Grant R. Smith, an attorney appointed to represent the Petitioner under the
Criminal Justice Act, hereby certify that, on February 25, 2021, I served the Petition
for Writ of Certiorari and accompanying Motion for Leave to Proceed In Forma Pauperis on all parties required to be served under Supreme Court Rule 29.4(a).
I completed service by causing a copy of the documents to be enclosed in an
envelope and be delivered to Federal Express for delivery within 3 calendar days, and
by causing an electronic version of the documents to be transmitted via email to:
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2000
SupremeCtBriefs@usdoj.gov
/s Grant R. Smith
Grant R. Smith
Assistant Federal Public Defender
Counsel of Record for Petitioner

